OFFICE OF INSPECTOR GENERAL

 DEPARTMENT OF VETERANS AFFAIRS




   SEMIANNUAL REPORT TO CONGRESS

   OCTOBER 1, 2007 - MARCH 31, 2008

                                Message from the Inspector General




This Semiannual Report to Congress focuses on the accomplishments of
the VA Ofﬁce of Inspector General (OIG) for the reporting period from
October 1, 2007, through March 31, 2008. Issued in accordance with
the Inspector General Act of 1978, as amended, it presents results based
on OIG strategic goals, which cover the areas of health care delivery,
beneﬁts processing, ﬁnancial management, procurement practices, and
information management.

During this reporting period, OIG issued 69 reports on VA programs
and operations. We recommended systemic improvements and
efﬁciencies in quality of care, accuracy of beneﬁts, ﬁnancial
management, economy in procurement, and information security.
OIG audits, investigations, and other reviews identiﬁed over $175 million
in monetary beneﬁts, for a return of $4 for every dollar expended on
OIG oversight. Our criminal investigators have closed 501 investigations and made 277 arrests.
OIG investigative work also resulted in 284 administrative sanctions.

The Ofﬁce of Healthcare Inspections (OHI) continued to evaluate quality of care issues at several
Veterans Health Administration (VHA) medical facilities. After VA’s internal review process identiﬁed
a high mortality rate at Marion, Illinois, VA Medical Center (VAMC), VA and Congress asked OIG to
perform a comprehensive review of the surgical services at the facility. Our review concluded the
surgical specialty care was in disarray and found speciﬁc problems with care provided to veteran
patients. OHI also identiﬁed non-fatal complications and problems in non-surgical care, an ineffective
Quality Management program, and deﬁciencies in credentialing and privileging of physicians. OHI
made 17 recommendations to improve VA health care, both for the VAMC and for VHA nationally.

On the beneﬁts side, two important audits of VBA operations have identiﬁed $29 million in funds that
could be put to better use. In delaying processing of certain compensation actions, VBA incurred
overpayments of $17 million. Avoidable delays in VBA actions on claims not requiring a rating action
led to another $12 million in overpayments. Our Ofﬁce of Investigations also detected serious criminal
activity directed at the beneﬁts process. For example, OIG initiated 39 investigations concerning
allegations of persons fraudulently receiving or applying for VA beneﬁts using unearned military
medals of valor to substantiate their claims. These “Stolen Valor” cases resulted in seven arrests, nine
indictments, and seven convictions.

The Ofﬁce of Contract Review (OCR) conducted preaward and postaward reviews speciﬁcally designed
to improve VA’s procurement process by protecting the interest of the Government and identifying and
resolving contractor overcharges. OCR issued 36 reports that resulted in savings and dollar recoveries
of over $46.1 million.

OIG appreciates the ongoing support we receive from the Secretary, the Deputy Secretary, and senior
management. We look forward to working with VA and Congress to make VA as effective as possible
in caring for our Nation’s veterans.




GEORGE J. OPFER
Inspector General
Semiannual Report to Congress   October 1, 2007–March 31, 2008





2

                                   TABLE OF CONTENTS


Message from the Inspector General .................................................................... 1


Statistical Highlights ............................................................................................ 5


VA and OIG Mission, Organization, and Resources ............................................... 6


Health Care Delivery............................................................................................. 7


Beneﬁts Processing ............................................................................................ 11


Financial Management........................................................................................ 13


Procurement Practices ....................................................................................... 14


Information Management................................................................................... 17


Other Signiﬁcant OIG Activities .......................................................................... 18


Appendix A–OIG Reports.................................................................................... 21


Appendix B—Status Of OIG Reports Unimplemented For Over 1 Year................. 26


Appendix C—Inspector General Act Reporting Requirements ............................. 28


Appendix D–Government Contractor Audit Findings ........................................... 30

Semiannual Report to Congress   October 1, 2007–March 31, 2008





4

October 1, 2007–March 31, 2008                                                  VA Ofﬁce of Inspector General



                                            Statistical Highlights
DOLLAR IMPACT ($$$ in Millions)
      Better Use of Funds ................................................................................... $29.0

      Fines, Penalties, Restitutions, and Civil Judgments ...........................................$7.9

      Fugitive Felon Program ............................................................................ $120.7

      Savings and Cost Avoidance ...................................................................... $13.4

      Questioned Costs ........................................................................................$1.7

      OIG Dollar Recoveries ..................................................................................$2.6

      Contract Review Savings and Dollar Recoveries ............................................. $46.1

RETURN ON INVESTMENT
      Dollar Impact ($175.3)/Cost of OIG Operations ($40.3) .................................... 4:1

      Dollar Impact ($46.1)/Cost of Contract Review Operations ($1.8) ..................... 26:1

OTHER IMPACT
      Arrests .......................................................................................................277

      Indictments .................................................................................................129

      Criminal Complaints ...................................................................................... 68

      Convictions .................................................................................................135

      Pretrial Diversions ......................................................................................... 19

      Fugitive Felon Apprehensions by Other Agencies Using VA OIG Data .................... 23

      Administrative Sanctions ...............................................................................284

ACTIVITIES
Reports Issued
     CAP Reviews................................................................................................. 27

     Healthcare Inspections ................................................................................... 29

     Audits.......................................................................................................... 11

     Administrative Investigations ............................................................................ 2

     Contract Reviews .......................................................................................... 36

Investigative Cases
     Opened.......................................................................................................480

     Closed ........................................................................................................501

Healthcare Inspections Activities
      Clinical Consultations ....................................................................................... 1 

      Administrative Case Closures ............................................................................ 3

Hotline Activities
      Cases Opened..............................................................................................396

      Cases Closed ...............................................................................................436





                                                                                                                      5
Semiannual Report to Congress                               October 1, 2007–March 31, 2008



                VA and OIG Mission, Organization,
                         and Resources
The Department of Veterans Affairs
The Department’s mission is to serve America’s veterans and their families with dignity
and compassion and to be their principal advocate in ensuring that they receive the care,
support, and recognition earned in service to the Nation. The VA motto comes from
Abraham Lincoln’s second inaugural address, given March 4, 1865, “to care for him who
shall have borne the battle and for his widow and his orphan.”

While most Americans recognize VA as a Government agency, few realize that it is the
second largest Federal employer. For ﬁscal year (FY) 2008, VA has a $90.3 billion budget
and almost 230,000 employees serving an estimated 23.5 million living veterans. To serve
the Nation’s veterans, VA maintains facilities in every state, the District of Columbia, the
Commonwealth of Puerto Rico, Guam, and the Republic of the Philippines.

VA has three administrations that serve veterans:

    • Veterans Health Administration (VHA) provides health care.
    • Veterans Beneﬁts Administration (VBA) provides income and readjustment beneﬁts.
    • National Cemetery Administration provides interment and memorial beneﬁts.
For more information, please visit the VA Internet home page at www.va.gov.

VA Ofﬁce of Inspector General
The Ofﬁce of Inspector General (OIG) was administratively established on January 1,
1978, to consolidate audits and investigations into a cohesive, independent organization.
In October 1978, the Inspector General Act, Public Law (P.L.) 95-452, was enacted,
establishing a statutory Inspector General (IG) in VA. It states that the IG is responsible
for: (1) conducting and supervising audits and investigations; (2) recommending policies
designed to promote economy and efﬁciency in the administration of, and to prevent
and detect criminal activity, waste, abuse, and mismanagement in VA programs and
operations; and (3) keeping the Secretary and Congress fully informed about problems
and deﬁciencies in VA programs and operations and the need for corrective action. The IG
has authority to inquire into all VA programs and activities as well as the related activities
of persons or parties performing under grants, contracts, or other agreements. Inherent
in every OIG effort are the principles of quality management (QM) and a desire to improve
the way VA operates by helping it become more customer-driven and results-oriented.

OIG, with 488 employees, is organized into 3 line elements: the Ofﬁces of Investigations,
Audit, and Healthcare Inspections, plus a contract review ofﬁce and a support element.
FY 2008 funding for OIG operations provides $80.5 million from appropriations. The
Ofﬁce of Contract Review, with 25 employees, receives $3.5 million through a
reimbursable agreement with VA for contract review services including preaward and
postaward contract reviews and other pricing reviews of Federal Supply Schedule (FSS)
contracts. In addition to the Washington, DC, headquarters, OIG has ﬁeld ofﬁces located
throughout the country.

OIG keeps the Secretary and Congress fully and currently informed about issues affecting
VA programs and the opportunities for improvement. In doing so, OIG staff strives to be
leaders and innovators, and to perform their duties fairly, honestly, and with the highest
professional integrity. For more information, please visit the OIG Internet home page at
www.va.gov/oig.




6
October 1, 2007–March 31, 2008                                 VA Ofﬁce of Inspector General



                            Health Care Delivery

The health care that VHA provides veterans is consistently ranked among the best in the
Nation, whether those veterans are recently returned from Operation Iraqi Freedom/
Operation Enduring Freedom (OIF/OEF) or are veterans of other periods of service with
different patterns of health care needs. OIG oversight helps VHA maintain a fully functional
QM program that ensures high-quality patient care and safety, and safeguards against the
occurrence of adverse events.

OFFICE OF HEALTHCARE INSPECTIONS
The OIG Ofﬁce of Healthcare Inspections (OHI) focuses on quality of care issues in
VHA and assesses VHA services. During this reporting period, OHI published 27 cyclical
Combined Assessment Program (CAP) reviews, and 29 hotline reports and national reviews
to evaluate quality of care issues in several VHA medical facilities.
High Mortality Rate at Illinois VA Facility Prompts Health Care Review
As a result of a review of the high mortality rate at Marion, Illinois, VA medical center
(VAMC) by VA’s National Surgical Quality Improvement Program (NSQIP), inpatient
surgery was halted, and VA and Congress asked OIG to perform a comprehensive review
of the surgical services at the facility. OIG’s review concluded that the surgical specialty
care at Marion VAMC was in disarray, citing three mortality cases that did not meet the
standard of care. Inspectors identiﬁed examples of non-fatal complications of care and
substantiated allegations of poor non-surgical medical care. In addition, OIG found an
ineffective QM program and deﬁciencies in the credentialing and privileging of physicians.
These problems, as well as the quality of care issues identiﬁed in speciﬁc cases, are a
reﬂection of facility leadership. OIG also concluded that NSQIP offers VA an opportunity
of providing evidence-based monitoring and improvement in quality of surgical care.
The review made 17 recommendations for improvement in VA health care, both for VHA
nationally and speciﬁcally for Marion VAMC. (Healthcare Inspection, Quality of Care
Issues, VA Medical Center, Marion, Illinois)
Need for Diabetes Screening for Patients on Atypical Antipsychotics
The purpose of the OIG review was to evaluate the effectiveness of diabetes screening,
monitoring, and treatment for mental health patients between the ages of 35 and 50,
who received atypical antipsychotic medications at VHA facilities. OIG conducted the
evaluations during 48 CAP reviews conducted throughout 2006. To improve patient
outcomes, OIG recommended that VHA clinicians implement and document strategies and
interventions for at-risk patients who are prescribed atypical antipsychotic medications,
striving to achieve target blood glucose and blood pressure levels that are reasonable for
their patients. (Healthcare Inspection, Atypical Antipsychotic Medications and Diabetes
Screening and Management)
Inspectors Review VHA Contract Community Nursing Home Program
VHA’s contract community nursing home (CNH) program provides services through
contracts with nursing homes to meet veterans’ geographic preferences and institutional
needs. OIG reviewed the quality and availability of CNH programs, and whether
appropriate controls were in place to monitor that care. Inspectors visited 88 nursing
homes, reviewing medical records and interviewing patients, families, guardians, and
facility administrators/directors to evaluate oversight and monitoring, and to assess
quality of care and patient safety. Also, OIG visited two VA medical facilities to investigate
the closure of CNH programs and its impact on veterans and their families. The review
recommended that the Under Secretary for Health take actions to improve compliance
with VA policy, documentation, reporting of patient incidents, and oversight. (Healthcare
Inspection, Evaluation of the Veterans Health Administration’s Contract Community
Nursing Home Program)
Salisbury VAMC Missed Opportunities To Diagnose Colorectal Cancer
An OIG review into allegations of inadequate care and failure to diagnose colorectal
cancer (CRC) in a high-risk patient at the W. G. (Bill) Hefner VAMC in Salisbury, North
Carolina, concluded that the patient’s diagnostic testing was delayed on several occasions
and providers missed multiple opportunities over several years to diagnose CRC. The


                                                                                               7
Semiannual Report to Congress                               October 1, 2007–March 31, 2008


patient had two incomplete colonoscopies, neither of which was appropriately followed
up. Inspectors recommended that managers ensure patients with known risk factors for
CRC receive appropriate and timely diagnostic testing and referrals in accordance with
professional practice guidelines. OIG also recommended that VA evaluate this case for
possible disclosure to the patient’s family. (Healthcare Inspection, Quality of Care Issues,
W. G. (Bill) Hefner VA Medical Center, Salisbury, North Carolina)
Health Care Inspection Notes Management and Safety Issues in Michigan
OIG conducted a health care inspection at the VAMC in Battle Creek to review multiple
allegations pertaining to mismanagement, safety issues, and undesirable outcomes for
four patients. Inspectors recommended that management reassess inpatient mental
health services, create appropriate plans and programs to optimize patient and staff
safety, and review mental health provider stafﬁng and workload based on patient care
needs. The mental health staff needed to complete periodic training and comply with VHA
policies regarding approvals for program restructuring, changes in program capacity, and
patient safety. (Healthcare Inspection, Alleged Mismanagement and Safety Issues, Battle
Creek VA Medical Center, Battle Creek, Michigan)
South Texas Veterans HCS Responds to Recommendations
OIG’s review of allegations of poor quality of care in the surgical intensive care unit at
the South Texas Veterans Healthcare System substantiated the allegation that General
Surgery did not follow consultative advice concerning ﬂuid management for the patient
cases reviewed for this inspection. However, inspectors found that this did not directly
result in the patient deaths. Deﬁciencies in the management and organizational structure,
patient advocacy program, and administrative nursing guidance prevented concerns from
being adequately addressed in a systematic fashion. In recognition of the considerable
improvements the system had already implemented, OIG made only six recommendations.
(Healthcare Inspection, Quality of Care in the Surgical Intensive Care Unit, South Texas
Veterans Health Care System, San Antonio, Texas)
VA Facility in Detroit Found Needing To Make Administrative Changes
An inspection at the John D. Dingell VAMC in Detroit did not substantiate allegations
that two patients scheduled for procedures in the surgical and endoscopy suite were
inappropriate candidates for moderate sedation as deﬁned by VAMC policy. However,
OIG found that operating room nurses were insufﬁciently prepared to participate in the
care of patients requiring moderate sedation and that inadequate training programs
were in place. To improve operations, OIG recommended implementing administrative
investigative board and VHA surgical site visit recommendations, making local policy
reﬂect VHA policy on cardiopulmonary resuscitation and moderate sedation, and ensuring
that policies and procedures specify requirements for independent supervisory review of
incidents. (Healthcare Inspection, Quality of Care and Management Issues in Surgical
Service, John D. Dingell VA Medical Center, Detroit, Michigan)
Review Finds Need To Improve Communication, Continuity of Care
OIG conducted an inspection into allegations of a veteran’s premature discharge from
the VA Pittsburgh Healthcare System (VAPHS) and overall concerns about his care. The
patient, a 25-year old Operation Iraqi Freedom veteran, was admitted to the VAPHS on
a warrant for involuntary commitment for evaluation and treatment. He was discharged
when it was determined he was not a danger to himself or others, and died approximately
3 weeks later of acute pneumonia. Inspectors found that the patient’s treatment at
the VAPHS and the clinical rationale for that treatment met the community standard
of care, but concluded that communication between the VAPHS and the Vet Center
needed improvement. The review made recommendations to improve the continuity of
care. (Healthcare Inspection, Alleged Premature Discharge of a Veteran, VA Pittsburgh
Healthcare System, Pittsburgh, Pennsylvania)




8
October 1, 2007–March 31, 2008                               VA Ofﬁce of Inspector General


West Virginia VAMC Institutes Mold Remediation Plan
OIG’s review of several allegations of deﬁciencies in the environment of care (EOC),
administrative mismanagement, and poor quality of care at the Martinsburg VAMC
substantiated that mold had been identiﬁed in multiple areas by the VAMC, which had
instituted mold remediation. OIG did not substantiate other EOC allegations, but found
that the radiology department did not have a quality review program. OIG recommended
that management continue to monitor and implement recommendations made in a
network-level quality task force report. (Healthcare Inspection, Alleged Mismanagement
and Patient Care Issues, Martinsburg VA Medical Center, Martinsburg, West Virginia)
End of Life Care Policies Found Unclear in Palo Alto Health Care System
Inspectors found no evidence to substantiate that any clinician provided incorrect or
unethical care to patients in the intensive care unit (ICU) or that three patient deaths
on the same day were intentionally hastened to make room for the following Monday’s
surgical patients. Following the review of several allegations about the deaths of four
patients in the ICU at the VA Palo Alto Health Care System, OIG concluded that the
policies that discuss end of life care issues were not clear and recommended changes be
made. (Healthcare Inspection, Alleged End of Life Care Issues, VA Palo Alto Health Care
System, Palo Alto, California)

OFFICE OF AUDIT
OIG audits of VA programs focus on the effectiveness of health care delivery for veterans.
These audits identify opportunities for enhancing management of program operations and
provide VA with constructive recommendations to improve health care delivery.
Home Respiratory Care Must Ensure Quality Care, Proper Payments
OIG’s audit of VHA’s Home Respiratory Care Program (HRCP) found that medical facilities
needed to strengthen HRCP oversight and contract administration to ensure the delivery
of quality care and services and to reduce unsupported and improper payments. Chiefs
of staff had not established home respiratory care teams or completed quarterly program
reviews as required by VHA policy. Moreover, medical facility staff did not ensure the
timely and consistent completion of patient reevaluations, patient home visits, and vendor
quality assurance visits. OIG’s review of a statistical sample identiﬁed 77 transactions
or $6,152 (12 percent) in improper or unsupported payments, projecting that VHA had
$3.4 million in unsupported costs and improper payments annually and that this could
grow to $16.8 million over the next 5 years if HRCP program administration practices
are not strengthened. (Audit of the Veterans Health Administration’s Home Respiratory
Care Program)

OFFICE OF INVESTIGATIONS
The OIG Ofﬁce of Investigations (OI) conducts criminal investigations into allegations of
patient abuse, facility security, drug diversion, theft of VA pharmaceuticals or medical
equipment, false claims for health care beneﬁts, and other frauds relating to the delivery
of health care to millions of veterans. In the area of health care delivery, OIG opened
132 cases, made 83 arrests, and obtained $2.4 million in ﬁnes, restitution, penalties, and
civil judgments as well as savings, efﬁciencies, cost avoidance, and recoveries.
Former Fayetteville, NC, VAMC Nurse Sentenced for Drug Diversion, Must
Pay Restitution
A nurse was sentenced to 60 months’ supervised probation and 100 hours’ community
service, ﬁned $1,000, and ordered to pay restitution of $1,042 after pleading guilty to
theft of Government property and illegal possession of controlled substances. An OIG
investigation determined that the nurse diverted approximately 1,500 doses of narcotics
by giving patients only a partial amount of their prescribed medications or, in some cases,
no medication at all.




                                                                                             9
Semiannual Report to Congress                             October 1, 2007–March 31, 2008


Defendant Sentenced for Theft of VA Medical Beneﬁts through Fraud
A former VAMC outpatient was sentenced to 24 months’ probation and ordered to pay
$14,093 in restitution after having previously pled guilty to making false statements. A
joint investigation by OIG and VA police determined that the subject, who is not a veteran,
submitted several fraudulent applications and an altered military document in order to
establish his veteran’s status and receive VA medical beneﬁts. The altered document
claimed that the subject was awarded three Medals of Honor, six Purple Hearts,
a Silver Star, a Bronze Star, and was a prisoner of war in Korea.
Impersonator Arrested Applying for Position as Surgeon in Indiana
A man applying for a surgical position at the Fort Wayne VAMC represented himself as a
military surgeon with extensive educational and professional experience. Attempts by VA
to verify his credentials revealed that he was not a physician and that multiple skills and
training claimed in his resume and interview were false. The defendant admitted providing
false statements and engaging in a scheme in which he stole money from two victims. He
was arrested and indicted for false statements and wire fraud.
Fraudulent Hero Arrested for Stealing Health and Disability Beneﬁts
After an OIG investigation revealed a veteran submitted a fraudulent discharge document
claiming Korean War service and being the recipient of a Silver Star, Bronze Star, Purple
Heart, and Korean Service Medal to the Portland VAMC to receive medical care and to the
Seattle VA regional ofﬁce (VARO) in support of a fraudulent claim for VA compensation
beneﬁts, he was charged with theft. He had also contacted a congressman, claiming he
was a Korean War hero, in an attempt to pressure VA to award beneﬁts. The loss to VA
exceeds $135,000.
Altered Document Used To Obtain Medical Care and Pharmaceuticals
A veteran was indicted for health care fraud and false statements after an OIG, the
Federal Bureau of Investigation (FBI), and VA police investigation disclosed that he
submitted an altered discharge document to the West Haven VAMC to obtain medical care
and pharmaceuticals he was not entitled to receive because of his less-than-honorable
discharge. The loss to VA is approximately $100,000.

OIG HOTLINE
In the area of health care, the OIG Hotline receives allegations that include patient
abuse, theft of VA pharmaceuticals or medical equipment, and false claims for health care
beneﬁts. The Hotline oversees the review and resolution of serious problems, and by
doing so, contributes to raising the quality of care for the Nation’s veterans.
Sterilization Shortcomings at Dallas VAMC Lead to Surgical Delays,
Remedial Actions
VHA canceled all scheduled elective surgeries at a medical center to guarantee sterility of
operative equipment. Engineering Service inspected the sterilization equipment, walked
the steam lines, and found three valves that had been shut off and seven steam traps that
were clogged. Any instrument sets sterilized before the system failure were reprocessed.
Engineering Service will conduct monthly checks on the steam lines to ensure steam traps
are clean and operating correctly.




10
October 1, 2007–March 31, 2008                                VA Ofﬁce of Inspector General



                             Beneﬁts Processing
Many veterans, especially returning OIF/OEF veterans, need a variety of beneﬁts and
services in order to transition to civilian life. OIG works to improve the delivery of these
beneﬁts and services by identifying opportunities to improve the quality, timeliness, and
accuracy of beneﬁts processing. In addition, OIG reduces criminal activity in the delivery
of beneﬁts through proactive and targeted audit and investigative efforts.

OFFICE OF AUDIT
OIG performs audits of veterans’ beneﬁts programs focusing on the effectiveness
of beneﬁts delivery to veterans, dependents, and survivors. These audits identify
opportunities for enhancing the management of program operations and provide VA with
constructive recommendations to improve the delivery of beneﬁts.
Auditors Recommend Improvements in Vocational Rehabilitation
OIG audited program results and performance in VBA’s Vocational Rehabilitation
and Employment (VR&E) Program operations. The review assessed the accuracy of
performance measurement and reporting, reasons veterans discontinue participation in
the program and actions taken to reduce the probability of veterans dropping out of the
program, and the effects of the statutory annual cap on veterans eligible for independent
living beneﬁts. To improve VR&E operations, auditors made four recommendations to
the Under Secretary for Beneﬁts. (Audit of Vocational Rehabilitation and Employment
Program Operations)
Processing Delays Cost Beneﬁciaries $15 Million in Underpayments, VBA
$17 Million in Overpayments
OIG audited VARO processing of compensation writeouts to determine if the process
was effective for ensuring that veterans and their dependents receive entitled beneﬁts.
For the 6-month period reviewed, VARO delays in processing writeouts caused 16,158
beneﬁciaries to be underpaid a total of $15 million and 9,503 to be overpaid a total of
$32 million, a net overpayment total of $17 million. OIG recommended that VBA require
VAROs to prioritize writeout actions that could prevent beneﬁciary underpayments
and overpayments. (Audit of the Effectiveness of Veterans Beneﬁts Administration
Compensation Writeouts)
Eighty-Three Percent of Non-Rating Claims Have Avoidable Delays
OIG audited VBA’s processing of non-rating claims—such as dependency status changes,
claims for veteran burial beneﬁts, and initial death pension claims for widows—which
involve compensation and pension beneﬁts, and can generally be processed without a
rating decision at VAROs. Delayed processing can result in overdue retroactive beneﬁt
payments and overpayments, which can have a negative ﬁnancial impact on veterans
and their dependents. OIG found that 83 percent of claims selected in the sample had
avoidable processing delays, which means about 21,400 beneﬁciaries nationwide would
receive approximately $45.4 million in delayed retroactive payments, and about 4,300
beneﬁciaries would be overpaid by approximately $12 million because of claims processing
delays. At the beginning of FY 2007, VA reported a 31 percent increase in pending claims
over the previous FY. Without increased emphasis on improving the processing time of
non-rating claims, beneﬁciaries will continue to experience avoidable delays in receiving
entitled beneﬁts, and VBA’s backlog of pending non-rating claims will continue to grow.
(Audit of Veterans Beneﬁts Administration Non-Rating Claims Processing)

OFFICE OF INVESTIGATIONS
VA administers a number of ﬁnancial beneﬁts programs for eligible veterans and certain
family members. Among the beneﬁts are VA guaranteed home loans, education,
insurance, and monetary beneﬁts provided by the Compensation and Pension (C&P)
Service. With respect to VA guaranteed loans, OI conducts investigations of loan
origination fraud, equity skimming, and criminal conduct related to management of
foreclosed loans or properties.




                                                                                           11
Semiannual Report to Congress                              October 1, 2007–March 31, 2008


C&P investigations routinely concentrate on payments being made to ineligible individuals.
For example, a beneﬁciary may feign a medical disability to deliberately defraud the
VA compensation program. The VA pension program, which is based on the beneﬁciary’s
income, is often defrauded by individuals who fail to report income in order to stay below
the eligibility threshold for these beneﬁts. An ongoing proactive income veriﬁcation match
identiﬁes possible fraud in the pension program. OI also conducts an ongoing death
match project that identiﬁes deceased beneﬁciaries of the VA C&P program whose beneﬁts
continue because VA was not notiﬁed of the death. In this reporting period, the death
match project recovered $1 million, with another $2 million in anticipated recoveries.
Generally, family members of the deceased are responsible for this type of fraud. In
the area of beneﬁts processing, OIG opened 245 cases, made 107 arrests, and had
$16.4 million in ﬁnes, restitution, penalties, and civil judgments as well as savings,
efﬁciencies, cost avoidance, and recoveries.
Suspect Arrested for Murder of Veteran after Foreclosure Investigation
A suspect was arrested and subsequently indicted for the murder of a veteran as the
result of an OIG, FBI, and local police investigation that began as an investigation into
the foreclosure of the veteran’s residence. VA Home Loan Guaranty Services notiﬁed OIG
after the suspect contacted VA and stated that the veteran was in a psychiatric facility, had
given her power of attorney, and wanted her to sell the veteran’s residence. The suspect
was unable to provide any documentation to VA to substantiate these claims. After further
investigation, the body of the retired Air Force veteran was found buried in the backyard of
his residence.
Non-Veteran Arrested for Fraudulent Receipt of VA Pension Beneﬁts
An OIG investigation determined that VA granted approximately $45,000 in VA pension
beneﬁts to a non-veteran after the subject claimed to have been a U.S. Marine who served
in Vietnam. The investigation revealed the defendant—who was incarcerated during the
time period he claimed to be in Vietnam—provided false information to VA that VA relied
on in making the award.
Fiduciary Charged for Misappropriating $270,000 of Father’s Beneﬁts
An OIG investigation determined that the son of an incompetent veteran, acting as his
father’s ﬁduciary, used his father’s VA, Social Security, Government retirement, and
private retirement beneﬁts for his own personal use. The son also used the proceeds
from the sale of his father’s home for his own use, and is alleged to have misappropriated
approximately $270,000. He was charged with misappropriation by a ﬁduciary.
Widow Who Failed To Report Remarriage Is Sentenced to Incarceration
The widow of a deceased veteran was sentenced to 6 months’ incarceration, 36 months’
probation, and payment of $269,916 in restitution as the result of a joint OIG, Railroad
Retirement Board OIG, and Ofﬁce of Personnel Management OIG investigation revealing
that she failed to inform the various agencies paying her beneﬁts that she had remarried.
The loss to VA is $235,398, with a total loss to the Government of $430,331.
Veteran Charged with Theft of Government Funds for Beneﬁts Fraud
A joint OIG and Social Security Administration OIG investigation determined that a veteran
fraudulently received compensation beneﬁts, including individual unemployability, primarily
based on his claim that he could not walk. The investigation found that the veteran
was employed as a truck driver during the time period he received VA and SSA beneﬁts,
passing U.S. Department of Transportation (DOT) physicals on ﬁve separate occasions
from 1999 to 2006. The loss to VA is approximately $200,000 and the loss to SSA is
approximately $100,000. The veteran was indicted for theft of Government funds.
Son of Deceased Veteran Sentenced for Beneﬁts Theft
An OIG investigation revealed that the son of a VA beneﬁciary used VA beneﬁts issued
after his mother’s death from 1996 through 2005. He was sentenced to 1 day’s
incarceration, 3 years’ probation, and payment of $115,487 in restitution after pleading
guilty to the unlawful conversion of public funds.




12
October 1, 2007–March 31, 2008                               VA Ofﬁce of Inspector General



                          Financial Management

VA needs to provide all its components with accurate, reliable, and timely information for
sound oversight and decision making. Since 1999, VA has achieved unqualiﬁed (“clean”)
audit opinions on its consolidated ﬁnancial statements (CFS). OIG audits and reviews
identify areas in which VA can improve ﬁnancial management controls, data validity, and
debt management.

OFFICE OF AUDIT
OIG performs audits of ﬁnancial management operations, focusing on adequacy of
VA ﬁnancial management systems in providing managers information needed to efﬁciently
and effectively manage and safeguard VA assets and resources. OIG oversight work
satisﬁes the Chief Financial Ofﬁcer Act of 1990, P.L. 101-576, audit requirements for
Federal ﬁnancial statements and provides timely, independent, and constructive reviews of
ﬁnancial information, programs, and activities. OIG reports provide VA with constructive
recommendations needed to improve ﬁnancial management and reporting throughout
the Department.
VA Receives Unqualiﬁed FY 2007 Audit Opinion with Material
Weaknesses
OIG contracted with the independent public accounting ﬁrm, Deloitte & Touche LLP, to
audit the VA FY 2007 CFS. The report provided an unqualiﬁed opinion on VA’s FY 2007
CFS. However, the report on internal controls identiﬁed four material weaknesses, three
of which (ﬁnancial management system functionality, information technology (IT) security
controls, and ﬁnancial management oversight) were repeat conditions from the prior year
audit. The fourth material weakness, retention of computer-generated detail records
in Beneﬁt Delivery Network system, was identiﬁed in FY 2007. The report continued to
show that VA was not in substantial compliance with requirements of the Federal Financial
Management Improvement Act of 1996 (FFMIA), P.L. 104-208, because of the material
weaknesses in internal control over ﬁnancial reporting. OIG will follow up and evaluate
the implementation of corrective actions during the audit of the VA FY 2008 CFS. (Report
of the Audit of the Department of Veterans Affairs Consolidated Financial Statements for
Fiscal Years 2007 and 2006)

OFFICE OF INVESTIGATIONS
OIG conducts criminal and administrative investigations related to allegations of serious
misconduct with regard to VA ﬁnancial management. These investigations often indicate
weaknesses and ﬂaws in VA ﬁnancial management.
Houston VAMC Manager Arrested for $200,000 Embezzlement
A former Houston VAMC manager was arrested for allegedly misappropriating over
$200,000 in funds belonging to the Houston VAMC Employees’ Association, DOT, and other
agencies. The investigation was conducted by a joint OIG and District Attorney Public
Integrity Section investigation.




                                                                                         13
Semiannual Report to Congress                               October 1, 2007–March 31, 2008



                          Procurement Practices

VA spends over $15 billion annually for pharmaceuticals, medical and surgical supplies,
prosthetic devices, IT, construction, and services. OIG contract audits focus on
compliance with Federal and VA acquisition regulations and cost efﬁciencies, which result
in recommendations for improvement. Preaward and postaward contract reviews have
resulted in $46.1 million in monetary beneﬁts during this reporting period.

OFFICE OF AUDIT
To improve VA acquisition programs and activities, OIG identiﬁes opportunities to achieve
economy, efﬁciency, and effectiveness for VA national and local acquisitions and supply
chain management. In addition, OIG examines how well major acquisitions are achieving
objectives and desired outcomes. The OIG efforts focus on determining whether the
Department is taking advantage of its full purchasing power when it acquires goods
and services. Auditors examine how well VA is managing and safeguarding resources
and inventories, obtaining economies of scale, and identifying opportunities to employ
best practices.
Controls Generally Effective for VA Purchases Made for DoD
OIG audited VA purchases made on behalf of the Department of Defense (DoD) to
evaluate the effectiveness of internal controls over such purchases. In general, VA
contracting activities had effective policies, procedures, and management controls in place
to ensure that contracting ofﬁcers complied with defense procurement requirements when
making purchases on behalf of DoD. However, OIG found instances of noncompliance
with procedural and documentation requirements, which increased the risk that DoD
did not receive contracted goods and services on terms that were advantageous to the
Government. (Audit of VA Purchases Made on Behalf of the Department of Defense)

OFFICE OF INVESTIGATIONS
OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations,
false claims submitted by contractors, and other fraud relating to VA procurement
activities. In the area of procurement practices, OIG opened 3 cases, made 3 arrests,
and had $5.1 million in ﬁnes, restitution, penalties, and civil judgments as well as savings,
efﬁciencies, cost avoidance, and recoveries.
VA Contractor Pleads Guilty to FDA Violation and Obstruction
A VA contractor agreed to plead guilty to a Food and Drug Administration (FDA) violation
and obstruction of an administrative proceeding and also to pay a criminal ﬁne of
$4.5 million. A joint OIG, FDA, Internal Revenue Service, and U.S. Postal Inspection
Service investigation determined that the corporation and its employees concealed from
FDA that the company shipped a drug to hospitals, including many VA hospitals, called
“sterile talc powder” and a medical device called “barium sulfate” without ﬁrst having
obtained FDA approval. The corporation also agreed to pay the Government $485,300,
plus interest, to resolve potential civil claims arising from this and other misconduct.
The corporation’s owner and former president was also indicted on related charges.
Pharmaceutical CEO Indicted under Food, Drug, and Cosmetics Act
The former CEO of a pharmaceutical company was indicted for wire fraud and felony
violations of the Food, Drug, and Cosmetics Act. A 4-year joint investigation conducted
with the FBI, FDA Ofﬁce of Criminal Investigations, and OPM OIG revealed that under
the direction of the CEO—a medical doctor—the company marketed and sold a drug for
off-label use that was not approved by FDA as safe. The investigation revealed that the
CEO and other senior ofﬁcials were aware that a clinical trial involving this use of this
drug failed, but when the trial results were publicized, the company issued a misleading
press release indicating that patients lived longer using the drug. The company agreed
to pay the Government nearly $37 million to resolve criminal charges and civil liability in
connection with its illegal marketing and sales; VA’s portion of this civil settlement was
approximately $3.2 million.




14
October 1, 2007–March 31, 2008                               VA Ofﬁce of Inspector General


Pharmaceutical Company Manager Indicted for Obstruction of Justice
A former district manager for a major pharmaceutical company was indicted for
obstruction of justice based on a joint investigation with the FBI, HHS OIG, and Postal
Inspection Service. The investigation revealed that the manager altered and deleted
documents from his own computer and directed sales representatives to alter or delete
documents from their computers which reﬂected the off-label promotion of a drug, at a
time when their employer was under investigation for promoting the drug for unapproved
uses and they had been speciﬁcally instructed to preserve all such documents relating to
the promotion of that drug.
Owner of Company Pleads Guilty to Submitting False Cable Claims
An OIG investigation revealed that an optical cable installation and maintenance company
billed VA facilities in California thousands of dollars for work that was never performed,
was incomplete, or was subcontracted for a lesser amount while the company received
payment in full. The estimated loss to VA is $425,000. The owner was sentenced to
3 years’ probation and ordered to pay VA restitution of $281,696 after pleading guilty to
making a material false representation.

OFFICE OF CONTRACT REVIEW
The Ofﬁce of Contract Review (OCR) operates under a reimbursable agreement with
VA’s Ofﬁce of Acquisition and Logistics (OA&L) to provide preaward, postaward, and other
requested reviews of vendors’ proposals and contracts. In addition, OCR provides advisory
services to OA&L contracting activities. OCR completed 36 reviews in this reporting
period. The tables that follow provide an overview of OCR performance during this
reporting period.

PREAWARD REVIEWS
Preaward reviews provide information to assist VA contracting ofﬁcers in negotiating fair
and reasonable contract prices and ensuring price reasonableness during the term of the
contract. Preaward reviews identiﬁed $23.4 million in potential cost savings during this
reporting period. In addition to FSS proposals, preaward reviews during this reporting
period included eight health care provider proposals—accounting for $15.2 million of the
identiﬁed potential savings. Reports resolved through negotiations by contracting ofﬁcers
continue to sustain a high percentage of recommended savings. For ﬁve reports, the
sustained savings rate was 54 percent.

                                   October 1, 2007–
                                    March 31, 2008

        Preaward Reports Issued                                    14

          Potential Cost Savings                             $23,431,497



POSTAWARD REVIEWS

Postaward reviews ensure vendors’ compliance with contract terms and conditions,
including compliance with the Veterans Health Care Act of 1992, P.L. 102-585, for
pharmaceutical products. OCR reviews resulted in VA recovering contract overcharges
totaling $16.6 million, including nearly $13 million related to Veterans Health Care
Act compliance with pricing requirements, recalculation of Federal ceiling prices, and
appropriate classiﬁcation of pharmaceutical products. Postaward reviews continue to play
a critical role in the success of VA’s voluntary disclosure process. Of the 20 postaward
reviews performed, 14 involved voluntary disclosures. In 5 of the 14 reviews, OCR
identiﬁed additional funds due.




                                                                                        15
Semiannual Report to Congress                                October 1, 2007–March 31, 2008



                                     October 1, 2007–
                                      March 31, 2008

        Postaward Reports Issued                                      20

             Dollar Recoveries                                  $16,636,633


Pharmaceutical Company’s Policies Not Compliant with Law
OIG initiated a review of a major pharmaceutical manufacturer’s policies and procedures
used to calculate statutory Federal ceiling prices (FCPs) under the Veterans Health Care
Act of 1992, P.L. 102-585. OCR determined that the manufacturer’s procedures and
methodologies used to calculate accurate non-Federal average manufacturing prices from
which the FCPs were derived were not sufﬁcient, causing incorrect FCPs. This resulted
in $10.8 million in overcharges to the Government during the period of January 1, 1998
through December 31, 2007. VA is taking action to recover the overcharges.

SPECIAL REPORTS

                                     October 1, 2007–
                                      March 31, 2008

              Special Reports                                         2

             Dollar Recoveries                                   $6,011,749


Contracts with Resellers Found Duplicative, Inefﬁcient, and Expensive
When major manufacturers use resellers to shield themselves from FSS pricing provisions
designed to ensure fair and reasonable prices for Government customers, the result is
inﬂated prices and lost pricing protections. An OCR report found FSS contract awards to
resellers that were duplicative, inefﬁcient, and expensive. OCR made recommendations to
the Executive Director of the National Acquisition Center to deﬁne and clarify FSS policies
as related to contracts with resellers, and to establish policies requiring contracting ofﬁcers
to adhere to existing General Services Administration policies regarding the negotiation,
award, and administration of FSS contracts.
Contract Review Finds Overcharges for Disability Examinations
OIG conducted an audit of a settlement offer by QTC Medical Systems, Inc. (QTC) to repay
VA about $3.2 million following an audit by a commercial Certiﬁed Public Accounting ﬁrm
of a limited period of a contract in which QTC provided medical disability examinations
for veterans with claims being evaluated by VBA. OIG determined that, over the entire
contract period, QTC had overcharged VA $6 million including $2.6 million because QTC
inappropriately increased the Medicare-based Contract Line Item Numbers each year even
though the contract stipulated pricing was to be based and frozen at the 1998 Medicare
rates. OIG made numerous recommendations to strengthen administration and oversight of
the contract and to collect the $6 million. VA ofﬁcials concurred on all recommendations with
the exception of collecting $2.6 million citing a VA Ofﬁce of General Counsel opinion.




16
October 1, 2007–March 31, 2008                                 VA Ofﬁce of Inspector General



                        Information Management

OIG oversight work in the IT area reﬂects the critical role IT plays in all VA operations, and
includes audits, criminal investigations, and reviews of IT security policies and procedures.
The loss of signiﬁcant amounts of VA data in May 2006 and January 2007 have highlighted
challenges facing VA information security. VA continues to show increased awareness of
IT security concerns and has completed some efforts aimed at improvement. OIG has
particularly noted VA’s commitment to centralizing IT functions, funding, and staff under
the direction of the Department’s Chief Information Ofﬁcer. Serious problems remain,
however, and OIG will continue close oversight of extensive VA IT activity.

OFFICE OF AUDIT
OIG performs audits of information management operations and policies, focusing on
adequacy of VA IT security policies and procedures for managing and safeguarding
VA program integrity and patient information security. OIG oversight in IT includes
meeting its statutory requirement to review VA’s compliance with the Federal Information
Security Management Act of 2002, as well as IT security reviews conducted as part of the
CFS audit. These reviews have led OIG to report information security and security of data
and data systems as a major management challenge for VA. OIG’s audit reports present
constructive recommendations needed for VA to improve its IT management and security.
Audit Finds Delayed Blood Bank Modernization Project Mismanaged
OIG audited the VHA’s Blood Bank Modernization Project (BBMP) to determine whether a
system development life cycle (SDLC) methodology was effectively employed and whether
the project complied with capital investment requirements. VA initiated the BBMP in
October 1999 to decrease the risk of errors and to improve the safety of blood component
transfusions. VA ofﬁcials initially planned to complete the BBMP by October 2004, but it
is now scheduled for completion in September 2008. Initially, the cost estimate was
$12.8 million, but OIG estimates VA has spent approximately $32.9 million on the project
from FY 2000 through FY 2007. OIG found VA did not properly plan and manage the
BBMP. Ofﬁcials did not complete seven critical planning and management tasks required
by the BBMP SDLC methodology, VA capital investment policies, and other project
guidance. As a result, VA lacked reasonable assurance that it selected the best project
alternative, used VA resources efﬁciently, and implemented effective controls to safeguard
sensitive project information. (Audit of Veterans Health Administration Blood Bank
Modernization Project)

OFFICE OF INVESTIGATIONS
OI investigates theft of IT equipment or data, network intrusions, identity theft, and child
pornography. In the area of information management crimes, OIG opened three cases,
made one arrest, and had $46,919 in ﬁnes, restitution, penalties, and civil judgments as
well as savings, efﬁciencies, cost avoidance, and recoveries.
Suspect Arrested For Theft of Computers and Other Equipment at
Indianapolis VAMC
A man was arrested for the theft of two desktop computers, a laptop computer, and
other equipment from the Indianapolis VAMC. An OIG, VA police, FBI, and local police
investigation identiﬁed the suspect through the VAMC’s surveillance video and the
suspect’s subsequent attempt to sell items matching the description of the stolen
equipment. To date none of the stolen equipment or data has been recovered. VA sent
letters and offered credit monitoring to over 12,000 veterans who were affected by the
data loss.




                                                                                           17
Semiannual Report to Congress                                   October 1, 2007–March 31, 2008



                    Other Signiﬁcant OIG Activities

CONGRESSIONAL TESTIMONY
Deputy Inspector General Testiﬁes on Disparity in Disability Ratings
Deputy Inspector General Jon A. Wooditch, accompanied by Deputy Assistant Inspector
General for Management and Administration Joseph Vallowe, testiﬁed before the House
Committee on Veterans’ Affairs Subcommittee on Oversight and Investigations on
October 16, 2007. He discussed OIG’s May 19, 2005, report, Review of State Variances
in VA Disability Compensation Payments and subsequent OIG activity relating to the
report. “While VBA has made some progress,” Mr. Wooditch summarized, “further efforts
are needed to monitor and measure variations in award decisions by state. Unacceptable
variations should be thoroughly evaluated to include in-depth reviews of individual claims
that deviate from expected norms. Information obtained from these reviews should be
used to improve consistency in rating decisions nationwide.”
Outpatient Waiting Times Subject of Two Hearings
Kansas City Audit Operations Division Director Larry Reinkemeyer testiﬁed on VHA
outpatient waiting times before the October 3, 2007, hearing of the Senate Special
Committee on Aging and appeared with Assistant Inspector General (AIG) for Auditing
Belinda J. Finn at a joint hearing of the House Committee on Veterans’ Affairs
Subcommittee on Oversight and Investigations and Subcommittee on Health regarding
VHA outpatient waiting times, on December 12, 2007. They reported that OIG’s
July 2005 and September 2007 reports found that schedulers were not following
established procedures for making outpatient appointments, causing VHA’s reported
performance on waiting times and waiting lists to be unreliable. The 2007 follow-up
review showed that many data integrity weaknesses reported in 2005 were still impacting
the reliability of patient waiting times.
OIG Testiﬁes on Implementation of Suicide Prevention Initiatives
OIG Senior Physician Michael Shepherd, M.D., testiﬁed before an October 3, 2007, hearing of
the Senate Special Committee on Aging regarding VA’s implementation of suicide prevention
initiatives from its Mental Health Strategic Plan (MHSP) and submitted a written statement
in connection with a House Committee on Veterans’ Affairs December 12, 2007, hearing.
Dr. Shepherd noted that OIG’s May 10, 2007, report, Healthcare Inspection, Implementing
VHA’s MHSP Initiatives for Suicide Prevention, surveyed all VAMCs between December 2006
and February 2007 to assess implementation of MHSP action items pertaining to suicide
prevention. He discussed OIG recommendations that included arranging for 24-hour crisis
and mental health care availability, that all non-clinical staff who interact with veterans should
receive mandatory training, and that VHA should establish a centralized mechanism to select
emerging best practices for screening, assessment, referral, and treatment.
Healthcare AIG Reports to Congress on Disarray at Marion VAMC
Assistant Inspector General for Healthcare Inspections John D. Daigh, Jr., M.D., testiﬁed at
a January 29, 2008, hearing of the House Committee on Veterans’ Affairs Subcommittee
on Oversight and Investigations on OIG’s review of the Marion VAMC’s surgical services
and high mortality rate. Dr. Daigh’s written statement noted “overall, we concluded that
the Surgical Specialty Care Line at Marion VAMC was in disarray,” as described in the
report,” Healthcare Inspection, Quality of Care Issues, VA Medical Center, Marion, Illinois.
OIG’s comprehensive review cited three mortality cases which did not meet the standard
of care. He also outlined OIG’s 17 recommendations for health care improvement at both
the affected facility and nationwide. Dr. Daigh was accompanied by George Wesley, M.D.,
and Jerome Herbers, M.D. (OIG’s Director and Associate Director of Medical Assessment),
Senior Physician Andrea Buck, M.D., and Statistician Limin Clegg, Ph.D.




18
October 1, 2007–March 31, 2008                               VA Ofﬁce of Inspector General


Deputy Inspector General Testiﬁes on OIG FY 2009 Budget
Deputy Inspector General Jon A. Wooditch testiﬁed before the Subcommittee on Oversight
and Investigations, House Committee on Veterans’ Affairs, on February 13, 2008,
concerning the OIG FY 2009 budget. He highlighted OIG accomplishments over the
past year, presented key issues facing VA, and discussed how OIG would invest budget
resources made available to the OIG in addressing these issues in FY 2009.

OIG Ofﬁcials Appear before House Appropriations Subcommittee
Counselor to the IG Maureen Regan and Assistant Inspectors General John Daigh, James
O’Neill, and Belinda Finn testiﬁed on the OIG FY 2009 budget before the Subcommittee
on Military Construction, Veterans Affairs, and Related Agencies, House Committee on
Appropriations, on February 27, 2008. They outlined recent accomplishments in their
respective areas, and discussed how OIG would invest budget resources in FY 2009 to
provide independent and objective oversight of VA mission-critical activities and programs
in health care delivery, beneﬁts processing, ﬁnancial management, procurement practices,
and information management.

OTHER VA EMPLOYEE-RELATED INVESTIGATIONS
Former Fayetteville, NC, VAMC Pharmacy Technician Sentenced for Murder
A former VA pharmacy technician was sentenced to life in prison and ordered to pay a
$34,000 ﬁne after pleading guilty to the murder of a VA pharmacist. A joint OIG, FBI, VA
police, and local police investigation revealed that the VA pharmacy technician shot and
killed the pharmacist in the facility pharmacy. The victim had been attempting to end a
long-term romantic relationship with the technician.
Veteran Is Charged with Assault Against Phoenix VAMC Nurse
A veteran was indicted for assaulting a VAMC nurse, who sustained a fractured jaw. The
veteran said he assaulted the nurse because he did not receive his pain medications in
what he perceived to be a timely manner.
VA Employee Sentenced for Distributing Drugs at Boston VARO
A VA employee was sentenced to 6 months’ home conﬁnement with a monitoring device
and 3 years’ supervised probation after pleading guilty to the distribution of a controlled
substance. The sentencing was the result of a joint investigation by OIG, VA police, the
Drug Enforcement Administration, the Federal Protective Service, and local police involving
the distribution and use of morphine and oxycodone by employees of the Boston VARO.
Former VA Pharmacist at Dallas VAMC Sentenced for Drug Diversion Fraud
A Dallas VA pharmacist and 10 co-defendants were convicted of health care fraud and
conspiracy to distribute controlled substances. A multi-agency investigation disclosed
that the defendants fraudulently obtained controlled substances from pharmaceutical
wholesalers and sold them over the Internet, without prescriptions, through 23 rogue
Internet pharmacies. The former pharmacist was sentenced to 8 years’ incarceration and
3 years’ probation for his involvement.
Former Witchita VAMC Employee Indicted for “Stolen Valor” Fraud
An OIG investigation determined that a Wichita VAMC employee, who was also a veteran,
submitted a fraudulent discharge document to reﬂect that he was awarded a Combat
Infantry Badge and used it to support his claim for beneﬁts based on post-traumatic
stress disorder. He also fraudulently augmented his original document to indicate that
he had received additional awards, submitting false general orders to show receipt of
these medals. The employee resigned from his position during the investigation and was
indicted for making false statements and a false claim about receipt of military medals.




                                                                                         19
Semiannual Report to Congress 	                                October 1, 2007–March 31, 2008


Threats Made Against VA Employees
During this reporting period the OIG opened nine criminal investigations resulting from
threats made against VA facilities and employees. Among them were the following:
   • 	 An OIG, VA police, and FBI investigation determined that a veteran telephoned the
       VA clinic in Oxford, Alabama, and told the staff that after he buried his mother, he
       was coming to the VA clinic with his carbine to kill his doctor and anyone who tried to
       stop him. Later, when contacted by VA police, the veteran threatened to kill VA police
       ofﬁcers and FBI agents. During a search incident to the arrest, a fully loaded carbine
       and an additional fully loaded magazine were discovered in the veteran’s vehicle.
     • 	 An OIG investigation revealed that a veteran left a voicemail message at the ofﬁce
         of a U.S. senator threatening to blow up the Houston VARO with C-4 explosive. In a
         second message, the subject made a threat against the director of the VARO. Both
         threats followed a letter sent from the VARO advising that the veteran’s claim for VA
         beneﬁts had been denied.
     • 	 A veteran in Florida was arrested by OIG and FBI agents for making threats against VA
         ofﬁcials. An OIG, VA police, and FBI investigation determined that the veteran sent an
         e-mail to a congressman’s ofﬁce “declaring war against VA,” and declaring VA to be a
         “domestic terrorist organization.” The veteran further threatened to go to Washington
         and “capture VA ofﬁcials, place them on trial, and then execute them.” The subject
         was ordered held pending further judicial action.
     • 	 An OIG investigation determined that a veteran left over 20 voicemails threatening
         sexual violence against a San Francisco VAMC social worker. The veteran was arrested,
         pled guilty, and is awaiting sentencing.
     • 	 A veteran was arrested for making harassing phone calls and communicating threats
         after an OIG, VA police, and local law enforcement investigation determined the
         veteran telephoned the Durham, North Carolina, VAMC and threatened to kill the VAMC
         Director. After his arrest, the veteran consented to a search of his residence, and
         several riﬂes, pistols, shotguns, thousands of rounds of ammunition, and incendiary
         explosive components were seized.

Fugitive Felons Arrested with Assistance of OIG
Veterans and VA employees continue to be identiﬁed and apprehended as a direct result of
the OIG Fugitive Felon Program. To date 24.9 million felon warrants have been received
from the National Crime Information Center and participating states resulting in 39,933
investigative leads being referred to law enforcement agencies. Over 1,800 fugitives have
been apprehended as a direct result of these leads. Among the arrests made by OIG, VA
police, U.S. Marshals, and local police during this reporting period were the following:
   • 	OIG and local police arrested a fugitive felon at the Houston VAMC on an outstanding
      felony drug possession warrant. The fugitive’s criminal history includes previous
      arrests for aggravated assault, sexual assault, kidnapping, and possession of
      controlled substances.
     • A veteran identiﬁed as a result of the OIG Fugitive Felon Program was arrested for
       aggravated rape after eluding apprehension for over 6 months. The veteran is being
       held pending extradition to Texas.
     • 	OIG and members of the U.S. Marshals Service Gulf Coast Regional Fugitive Task
        Force arrested a Jackson VAMC contract employee wanted for a probation violation
        stemming from his prior felony conviction for possession of cocaine. He had used
        several names, dates of birth, and social security numbers with various employers to
        avoid apprehension for over 3 years.
     • 	A VA employee was arrested at the Leavenworth VAMC by VA police and local police
        with OIG assistance. The employee was wanted for making criminal threats.
     • 	A veteran and prospective employee arrested during employee orientation at 

        the Dallas VAMC was wanted on a probation violation stemming from a previous 

        conviction of assaulting a police ofﬁcer. 

Since the inception of the program in 2002, OIG has identiﬁed $522.6 million in estimated
overpayments, with an estimated cost avoidance of $600.4 million.


20
October 1, 2007–March 31, 2008                                 VA Ofﬁce of Inspector General



                                         APPENDIX A

                      DEPARTMENT OF VETERANS AFFAIRS
                        OFFICE OF INSPECTOR GENERAL
                                   REPORTS

   Report                                                        Funds Recommended for
  Number/                                                              Better Use          Questioned
 Issue Date                      Report Title                      OIG        Management     Costs

COMBINED ASSESSMENT PROGRAM REVIEWS


07-01753-07   Combined Assessment Program Review of the
10/16/2007    Hunter Holmes McGuire VA Medical Center,
              Richmond, Virginia
07-00543-08   Combined Assessment Program Review
10/18/2007    of the Jesse Brown VA Medical Center,
              Chicago, Illinois
07-00766-11   Combined Assessment Program Review
10/23/2007    of the VA New York Harbor Healthcare System,
              New York, New York
07-01248-13   Combined Assessment Program Review
10/24/2007    of the Bay Pines VA Healthcare System,
              Bay Pines, Florida
07-00171-15   Combined Assessment Program Review
10/29/2007    of the VA Montana Health Care System,
              Fort Harrison, Montana
07-02081-17   Combined Assessment Program Review
10/30/2007    of the Portland VA Medical Center,
              Portland, Oregon
07-02271-20   Combined Assessment Program Review
11/6/2007     of the VA Medical Center, Louisville, Kentucky
07-00167-22   Combined Assessment Program Review
11/13/2007    of the VA Nebraska Western Iowa Health Care
              System, Omaha, Nebraska
07-01731-28   Combined Assessment Program Review of the
11/27/2007    Central Texas Veterans Health Care System,
              Temple, Texas
07-02349-29   Combined Assessment Program Review
11/27/2007    of the New Mexico VA Health Care System,
              Albuquerque, New Mexico
07-00767-34   Combined Assessment Program Review
12/7/2007     of the Edward Hines, Jr. VA Hospital,
              Hines, Illinois
07-03443-46   Combined Assessment Program Review of the
12/19/2007    VA Medical Center, Durham, North Carolina
07-02705-49   Combined Assessment Program Review of
1/2/2008      the Sioux Falls VA Medical Center, Sioux
              Falls, South Dakota


                                                                                    Appendix    •   21
              Semiannual Report to Congress                              October 1, 2007–March 31, 2008



   Report                                                          Funds Recommended for
                                                                   Funds Recommended for Better Use
  Report
  Number/                                                                Better Use         Questioned
 Number/
 Issue Date                         Report Title                     OIG        Management Questioned
                                                                                               Costs
Issue Date                        Report Title                 OIG           Management       Costs
07-02557-50       Combined Assessment Program Review of
1/3/2008          the Southern Arizona VA Health Care System,
                  Tucson, Arizona
07-02498-52       Combined Assessment Program Review of the
1/4/2008          Philadelphia VA Medical Center, Philadelphia,
                  Pennsylvania
07-03081-54       Combined Assessment Program Review of the
1/8/2008          Erie VA Medical Center, Erie, Pennsylvania
07-02946-55       Combined Assessment Program Review of the
1/9/2008          VA Greater Los Angeles Healthcare System,
                  Los Angeles, California
07-02836-66       Combined Assessment Program Review of the
2/4/2008          Harry S. Truman Memorial Veterans’ Hospital,
                  Columbia, Missouri
07-03341-73       Combined Assessment Program Review of
2/11/2008         the VA Puget Sound Health Care System,
                  Seattle, Washington
08-00137-74       Combined Assessment Program Review of the
2/12/2008         El Paso VA Health Care System, El Paso, Texas
07-03184-77       Combined Assessment Program Review
2/19/2008         of the John D. Dingell VA Medical Center,
                  Detroit, Michigan
07-02948-81       Combined Assessment Program Review of the
2/21/2008         VA Caribbean Healthcare System,
                  San Juan, Puerto Rico
07-03185-82       Combined Assessment Program Review of the
2/25/2008         VA Northern Indiana Health Care System, Fort
                  Wayne and Marion, Indiana
07-02837-83       Combined Assessment Program Review
2/26/2008         of the John J. Pershing VA Medical Center,
                  Poplar Bluff, Missouri
08-00054-84       Combined Assessment Program Review
2/27/2008         of the Alexandria VA Medical Center,
                  Pineville, Louisiana
07-03445-97       Combined Assessment Program
3/17/2008         Review of the Wilkes-Barre VA Medical Center,
                  Wilkes-Barre, Pennsylvania
08-00373-99       Combined Assessment Program Review of
3/20/2008         the VA Long Beach Healthcare System, Long
                  Beach, California




Appendix      •   22
October 1, 2007–March 31, 2008                                   VA Ofﬁce of Inspector General



   Report                                                          Funds Recommended for
                                                                   Funds Recommended for Better Use
  Report
  Number/                                                                Better Use         Questioned
 Number/
 Issue Date                     Report Title                         OIG        Management Questioned
                                                                                               Costs
Issue Date                    Report Title                     OIG           Management       Costs
HEALTHCARE INSPECTIONS


06-02868-14   Healthcare Inspection, Alleged Mismanagement
10/25/2007    and Safety Issues, Battle Creek VA Medical
              Center, Battle Creek, Michigan
07-01400-16   Healthcare Inspection, Quality of Care and
10/29/2007    Management Issues in Surgical Service, John
              D. Dingell VA Medical Center, Detroit, Michigan
06-03145-23   Healthcare Inspection, Quality of Care
11/7/2007     Issues, VA Ann Arbor Healthcare System,
              Ann Arbor, Michigan
07-03023-32   Healthcare Inspection, Importation of
11/30/2007    Blood Products for Research Purposes,
              New Mexico VA Health Care System,
              Albuquerque, New Mexico
07-01181-36   Healthcare Inspection, Quality of Care Issues,
12/11/2007    Tennessee Valley Healthcare System, Nashville
              and Murfreesboro, Tennessee
05-00680-37   Healthcare Inspection, Atypical Antipsychotic
12/12/2007    Medications and Diabetes Screening
              and Management
07-02106-38   Healthcare Inspection, Alleged Quality
12/13/2007    of Care Issues, VA Medical Center,
              Birmingham, Alabama
05-00266-39   Healthcare Inspection, Evaluation of the
12/13/2007    Veterans Health Administration’s Contract
              Community Nursing Home Program
06-02509-40   Healthcare Inspection, Quality of Care in
12/17/2007    the Surgical Intensive Care Unit, South
              Texas Veterans Health Care System, San
              Antonio, Texas
07-03037-43   Healthcare Inspection, Alleged Quality of Care
12/18/2007    Issues, VA Nebraska-Western Iowa Health Care
              System, Omaha, Nebraska
07-02296-44   Healthcare Inspection, Pain Management
12/19/2007    Concerns, Primary Care Clinic,
              Richard L. Roudebush VA Medical Center,
              Indianapolis, Indiana
07-03298-48   Healthcare Inspection, Infusion Clinic Closure
12/20/2007    and Patient Notiﬁcation, VA Southern Nevada
              Healthcare System, Las Vegas, Nevada
07-02405-51   Healthcare Inspection, Vascular Laboratory
1/4/2008      Quality of Care Issues at the Hunter Holmes
              McGuire VA Medical Center, Richmond, Virginia
07-03010-53   Healthcare Inspection, Alleged Administrative
1/7/2008      Review Issues, VA Nebraska Western Iowa
              Health Care System, Omaha, Nebraska



                                                                                      Appendix   •   23
              Semiannual Report to Congress                                  October 1, 2007–March 31, 2008



   Report                                                              Funds Recommended for
                                                                       Funds Recommended for Better Use
  Report
  Number/                                                                    Better Use         Questioned
 Number/
 Issue Date                         Report Title                         OIG        Management Questioned
                                                                                                   Costs
Issue Date                        Report Title                     OIG           Management       Costs
07-02655-56       Healthcare Inspection, Surgery Quality of
1/10/2008         Care Issues, VA Eastern Kansas Health Care
                  System, Leavenworth, Kansas
07-03292-60       Healthcare Inspection, Alleged Quality of Care
1/16/2008         Issues, VA Loma Linda Healthcare System,
                  Loma Linda, California
07-01622-62       Healthcare Inspection, Alleged Premature
1/24/2008         Discharge of a Veteran VA Pittsburgh
                  Healthcare System, Pittsburgh, Pennsylvania
07-03386-65       Healthcare Inspection, Quality of Care Issues,
1/28/2008         VA Medical Center, Marion, Illinois
07-02335-67       Healthcare Inspection, Alleged Certiﬁcation
1/31/2008         Irregularities of Licensed Clinical Social
                  Workers, VA Western New York Healthcare
                  System, Buffalo, New York
07-02388-68       Healthcare Inspection, Alleged Mismanagement
1/31/2008         and Patient Care Issues, Martinsburg VA
                  Medical Center, Martinsburg, West Virginia
07-01912-72       Healthcare Inspection, Quality of Care
2/8/2008          Issues, W. G. (Bill) Hefner VA Medical Center,
                  Salisbury, North Carolina
07-03087-75       Healthcare Inspection, Alleged Quality of
2/14/2008         Care Issues, Martinsburg VA Medical Center,
                  Martinsburg, West Virginia
07-03382-76       Healthcare Inspection, Questionable Medical
2/14/2008         Treatment and Suspicious Deaths, VA Medical
                  Center, Alexandria, Louisiana
07-02902-78       Healthcare Inspection, Supply, Processing,
2/20/2008         and Distribution Issues and Quality of Care
                  Concerns, William Jennings Bryan Dorn VA
                  Medical Center, Columbia, South Carolina
07-01876-80       Healthcare Inspection, Diagnostic
2/20/2008         Radiopharmaceutical Management, VA North
                  Texas Health Care System, Dallas, Texas
08-00183-94       Healthcare Inspection, Alleged Quality of
3/20/2008         Care Issues James A. Haley Veterans Hospital
                  Tampa, Florida and Bay Pines VA Health Care
                  System, Bay Pines, Florida
08-00509-103      Healthcare Inspection, Alleged End of Life Care
3/25/2008         Issues, VA Palo Alto Health Care System, Palo
                  Alto, California
08-00869-102      Healthcare Inspection, Additional Quality
3/26/2008         of Care Issues’ Marion VA Medical Center,
                  Marion, Illinois




Appendix      •   24
October 1, 2007–March 31, 2008                                   VA Ofﬁce of Inspector General



   Report                                                          Funds Recommended for
                                                                   Funds Recommended for Better Use
  Report
  Number/                                                                Better Use         Questioned
 Number/
 Issue Date                      Report Title                        OIG        Management Questioned
                                                                                               Costs
Issue Date                     Report Title                    OIG           Management       Costs
07-00773-106   Healthcare Inspection, Surgical Care
3/31/2008      Improvement Project

INTERNAL AUDITS

05-01670-04    Final Report, Special Review of Federal Supply
10/15/2007     Schedule Medical Equipment and Supply
               Contracts Awarded to Resellers
07-01016-21    Report of the Audit of the Department of
11/15/2007     Veterans Affairs Consolidated Financial
               Statements for Fiscal Years 2007 and 2006
06-03540-24    Audit of VA Purchases Made on Behalf of the
11/19/2007     Department of Defense
06-00801-30    Audit of the Veterans Health Administration’s                                     $1,676,777
11/28/2007     Home Respiratory Care Program
06-00493-42    Audit of Vocational Rehabilitation and
12/17/2007     Employment Program Operations
06-01791-45    Audit of the Effectiveness of Veterans Beneﬁts     $17,000,000   $17,000,000
12/19/2007     Administration Compensation Writeouts
06-03537-69    Audit of Veterans Beneﬁts Administration           $12,000,000   $12,000,000
2/7/2008       Non-Rating Claims Processing
06-03424-70    Audit of Veterans Health Administration Blood
2/8/2008       Bank Modernization Project

OTHER OFFICE OF AUDIT REVIEWS


08-00782-93    Independent Review of VA’s Fiscal Year 2007
3/17/2008      Detailed Accounting Submission To the Ofﬁce
               of National Drug Control Policy
08-00782-100   Independent Review of VA’s Fiscal Year 2007
3/26/2008      Performance Summary Report To the Ofﬁce of
               National Drug Control Policy
07-00972-105   Independent Review of Department of Veterans
3/31/2008      Affairs Fiscal Year 2007 Special Disabilities
               Capacity Report

ADMINISTRATIVE INVESTIGATIONS

06-02434-03    Administrative Investigation, Misuse of
10/9/2007      Government Travel Card, VA Central Ofﬁce
07-02423-10    Administrative Investigation, Misuse of Time,
10/18/2007     Resources, & Title, and Improper Remote
               Access, VA Central Ofﬁce

TOTAL:         69 Reports                                        $29,000,000 $29,000,000      $1,676,777




                                                                                      Appendix      •   25
             Semiannual Report to Congress                            October 1, 2007–March 31, 2008


                                         APPENDIX B

       STATUS OF OIG REPORTS UNIMPLEMENTED FOR OVER 1 YEAR
The Federal Acquisition Streamlining Act of 1994, P.L. 103-355, requires Federal agencies to complete
ﬁnal action on each OIG report recommendation within 12 months after the report is ﬁnalized. OIG
is required to identify unimplemented recommendations in its Semiannual Report to Congress until
the ﬁnal action is completed. This appendix summarizes the status of OIG unimplemented reports
and recommendations. The following chart lists the total number of unimplemented OIG reports and
recommendations by organization. It also provides the total number of unimplemented reports and
recommendations issued over 1 year ago (March 31, 2007, and earlier). Four reports open less than 1
year on the following chart have actions at two ofﬁces.



                    Unimplemented OIG Reports and Recommendations

   VA                                                                 Issued 3/31/07
                              Total
  Ofﬁce                                                                  and Earlier

                   Reports         Recommendations             Reports          Recommendations

      VHA             66                     268                  9                     23

      VBA             4                       8                   0                      0
OIT
     OI&T1            6                      87                   2                     30
OM
      OM2             1                       1                   0                      0

OSPOSP3               1                       2                   0                      0




Appendix     •   26
October 1, 2007–March 31, 2008                                              VA Ofﬁce of Inspector General




                                 Reports Unimplemented for Over 1 Year

Report Number       Date of                       Title                     Responsible            Open              Monetary
                     Issue                                                 Organization(s)    Recommendations         Impact

                                   Healthcare Inspection, VHA’s
03-00391-138       5/3/2004      Community Residential Care (CRC)                VHA                1 of 11
                                             Program


                                     Audit of the Veterans Health
04-02887-169       7/8/2005          Administration’s Outpatient                 VHA                 5 of 8
                                       Scheduling Procedures


                                  Audit of VA Acquisition Practices
04-02330-212      9/30/2005      for the National Vietnam Veterans               VHA                 1 of 3
                                         Longitudinal Study


                                   Review of Access to Care in the
05-03028-145      5/17/2006                                                      VHA                 2 of 9
                                   Veterans Health Administration


                                     Audit of the Veterans Health
04-00018-155      6/14/2006         Administration’s Acquisition of              VHA                 2 of 4         $6,000,000
                                    Medical Transcription Services


                                Review of Issues Related to the Loss
06-02238-163      7/11/2006       of VA Information Involving the               OI&T                 2 of 6
                                  Identity of Millions of Veterans


                                  Combined Assessment Program
05-03281-168      7/17/2006       Review of the VA Medical Center                VHA                1 of 12           $48,294
                                         Huntington, WV


                                  Evaluation of the Veterans Health
04-00888-215      9/20/2006      Administration Homeless Grant and               VHA                5 of 24
                                         Per Diem Program


                                     Audit of VA Disbursement
 05-01234-25      11/15/2006                                                     VHA                 4 of 4          $591,016
                                  Agreements for Senior Residents

                                  Healthcare Inspection, Evaluation
                                 of Quality Management in Veterans
 05-00081-36      12/8/2006                                                      VHA                 2 of 3
                                Health Administration Facilities Fiscal
                                        Years 2004 and 2005

                                  FY 2006 Audit of VA Information
06-00035-222 9/28/2007                                                          OI&T               28 of 30
                                        Security Program*

TOTALS                                                                                                53            $6,639,310




*Although this FY 2006 audit, conducted in compliance with the Federal Information Security Management Act of 2002 (FISMA),
 is not yet over 1 year old, it contains 15 unimplemented OIG recommendations from earlier FISMA audits, which is the basis for
 including it in this presentation.




                                                                                                         Appendix        •    27
           Semiannual Report to Congress                               October 1, 2007–March 31, 2008



                                        APPENDIX C

           INSPECTOR GENERAL ACT REPORTING REQUIREMENTS
The table below cross-references the speciﬁc pages in this Semiannual Report to the reporting
requirements where they are prescribed by the Inspector General Act, as amended by the Inspector
General Act Amendments of 1988 (P.L. 100-504), and the Omnibus Consolidated Appropriations Act of
1997 (P.L. 104-208).
FFMIA requires OIG to report instances and reasons when VA has not met the intermediate target
dates established in the VA remediation plan to bring VA’s ﬁnancial management system into
substantial compliance with the Act. FFMIA requires OIG to report instances and reasons when VA has
not met the intermediate target dates established in the VA remediation plan to bring VA’s ﬁnancial
management system into substantial compliance with the Act. The FY 2007 audit of VA’s consolidated
ﬁnancial statements reported that three of four identiﬁed material weaknesses indicated VA’s ﬁnancial
management systems did not substantially comply with Federal ﬁnancial management systems
requirements. Two of the material weaknesses were repeated from the prior year and one is new.
VA has not fully developed all parts of its remediation plan in response to the FY 2007 audit, but
remedial actions are underway.


     IG Act                              Reporting
                                                                                    Status
   References                          Requirements
                      Review of legislative, regulatory, and                 Commented on
 Section 4 (a) (2)
                      administrative proposals                               285 items

 Section 5 (a) (1)    Signiﬁcant problems, abuses, and deﬁciencies           See pages 7-20

                      Recommendations with respect to signiﬁcant
 Section 5 (a) (2)                                                           See pages 7-20
                      problems, abuses, and deﬁciencies
                      Prior signiﬁcant recommendations on which
 Section 5 (a) (3)                                                           See pages 26-27
                      corrective action has not been completed
                      Matters referred to prosecutive authorities and
 Section 5 (a) (4)                                                           See pages 7-20
                      resulting prosecutions and convictions
                      Summary of instances where information was
 Section 5 (a) (5)                                                           None
                      refused
                      List of audit reports by subject matter,
 Section 5 (a) (6)    showing dollar value of questioned costs and           See pages 21-25
                      recommendations that funds be put to better use
 Section 5 (a) (7)    Summary of each particularly signiﬁcant report         See pages 7-20
                      Statistical tables showing number of reports and
 Section 5 (a) (8)    dollar value of questioned costs for unresolved,       See page 29
                      issued, and resolved reports
                      Statistical tables showing number of reports and
                      dollar value of recommendations that funds be put
 Section 5 (a) (9)                                                           See page 29
                      to better use for unresolved, issued, and resolved
                      reports
                      Summary of each audit report issued before
 Section 5 (a) (10)   this reporting period for which no management          See page 29
                      decision was made by end of reporting period
 Section 5 (a) (11)   Signiﬁcant revised management decisions                None
                      Signiﬁcant management decisions with which the
 Section 5 (a) (12)                                                          None
                      Inspector General is in disagreement

 Section 5 (a) (13)   Information described under section 5(b) of FFMIA      See top of this page



Appendix    •   28
October 1, 2007–March 31, 2008                        VA Ofﬁce of Inspector General


Table 1: Resolution Status of Reports with Questioned Costs

                                                                             Dollar Value
                    RESOLUTION STATUS                          Number
                                                                             (In Millions)
 No management decision by 9/30/07                                 0                    $0
 Issued during reporting period                                    1                  $1.7
   Total inventory this period                                     1                  $1.7
 Management decisions during the reporting period
 Disallowed costs (agreed to by management)                        1                   $1.7
 Allowed costs (not agreed to by management)                       0                    $0
   Total management decisions this reporting period                1                  $1.7
   Total carried over to next period                               0                    $0




Table 2: Resolution Status of Reports with Recommended Funds To Be Put To
Better Use By Management
                                                                             Dollar Value
                    RESOLUTION STATUS                          Number
                                                                             (In Millions)
 No management decision by 9/30/07                                 0                   $0
 Issued during reporting period                                    2               $29.0
   Total inventory this period                                     2              $29.0
 Management decisions during the reporting period
 Agreed to by management                                           2                  $29.0
 Not agreed to by management                                       0                     $0
   Total management decisions this reporting period                2                  $29.0
   Total carried over to next period                               0                    $0




                                                                           Appendix      •    29
           Semiannual Report to Congress                             October 1, 2007–March 31, 2008



                                       APPENDIX D
                GOVERNMENT CONTRACTOR AUDIT FINDINGS
The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each 

Inspector General appointed under the Inspector General Act of 1978 to submit an annex on ﬁnal, 

completed contract audit reports issued to the contracting activity that contain signiﬁcant audit 

ﬁndings—unsupported, questioned, or disallowed costs in an amount in excess of $10 million, or other 

signiﬁcant ﬁndings—as part of the Semiannual Report to Congress. During this reporting period, 

OIG issued no contract review reports under this requirement.





Appendix    •   30
October 1, 2007–March 31, 2008   VA Ofﬁce of Inspector General




                                                      Appendix   •   31

Copies of this report are available to the public. Written requests should be sent to:

Ofﬁce of the Inspector General (53A)
Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

The report is also available on our website:
http://www.va.gov/oig/publications/semiann/reports.asp
For further information regarding VA OIG, you may call 202-461-4720.




Cover photo courtesy Department of Defense
                                                                     VA OIG Semiannual Report to Congress
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


                  (CALLER CAN REMAIN ANONYMOUS)




To Telephone:           (800) 488-8244
                        (800) 488-VAIG
To FAX:                 (202) 565-7936

To Send
Correspondence:         Department of Veterans Affairs
                        Inspector General Hotline (53E)
                        P.O. Box 50410
                        Washington, DC 20091-0410

Internet Homepage:      http://www.va.gov/oig/contacts/hotline.asp

E-mail Address:         vaoighotline@va.gov




                                                                     March 31, 2008 - Vol. 59


                     Department of Veterans Affairs
                       Ofﬁce of Inspector General
                     Semiannual Report to Congress

                     October 1, 2007 - March 31, 2008
